U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT


          LOWER BRULE SIOUX
         RURAL WATER SYSTEM,
           MNI WICONI RURAL
        WATER SUPPLY PROJECT,
        BUREAU OF RECLAMATION

             REPORT NO. 99-I-588
                 JUNE 1999




                                   3
                                                                      W-IN-BOR-004-98(C)-R


              United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                                      Washington, DC. 20240




                                                                            JUN 24 1999
Memorandum

To:       Assistant Secretary for Water and Science

From:     Robert J. Williams fl  ..-kJ ,? L&_&&L
          Assistant Inspector General forAudits

Subject: Audit Report on the Lower Brule Sioux Rural Water System, Mni Wiconi Rural
         Water Supply Project, Bureau of Reclamation (No. 99-I-588)

This report presents the results of our audit ofthe cost of constructing the Lower Brule Sioux
Rural Water System, which is part of the Mni Wiconi Rural Water Supply Project, located
in South Dakota. The objectives of the audit were to (1) identify the source of any incurred
or projected cost overruns and (2) determine whether the costs incurred by the Lower Brule
Sioux Tribe to design and construct its portion of the Project were expended in accordance
with Federal law, regulations, and funding agreements. Our review was performed as part
of our audit of the four non-Federal sponsors of the Mni Wiconi Project, including the Lower
Brule Sioux Tribe. The results of our review of the other Project sponsors will be presented
in separate reports. The audit of the Project was undertaken at the request of three members
of the Congress.

Based on our review, we found that a cost overrun of $7.1 million is projected for the Lower
Brule System and that the actual overrun could be substantially higher if expenditures for
noncontract activities are not controlled. An overrun is projected because the cost estimate
for the System was not based on a thorough assessment of the Tribe’s municipal, rural, and
industrial water needs and related construction costs and the Bureau ofReclamation approved
construction of additional items that were not included in its May 1993 Final Engineering
Report, which was the criterion for construction of the Project. In addition, the Bureau, the
Tribe, and the Tribe’s engineering firm incurred noncontract costs at a rate significantly higher
than the 39.2 percent rate stipulated in the Report and in the 1995 cooperative agreement
between the Bureau and the Tribe. As a result, additional funding authorization will be
needed to complete the System as currently designed by the Tribe’s engineering firm.

We reviewed costs of $1,596,304, or approximately 71 percent, of the costs of $2252,630
charged to construction of the Lower Brule System through September 30, 1998, and found
that the costs incurred for construction ofthe System were generally expended in accordance
with Federal law, regulations, and terms of the cooperative agreement, However, we
identified operation and maintenance and administrative expenditures that were not classified
or charged in accordance with the terms of the agreement or Office of Management and
Budget Circular A-87, “Cost Principles for State, Local, and Indian Tribal Governments.” We
also identified other administrative costs that were not adequately supported. In addition, we
found that the Tribe had not established procedures and controls to ensure that costs were
charged to the proper accounts and that the Bureau had not ensured that the costs charged
and reported were reasonable and in accordance with the purposes and terms of the
agreement. As a result, ofthe $1,596,304 reviewed, we questioned costs of $253,525, which
consisted of cost exceptions of $155,45 1 and unsupported costs of $98,074.

To address the cost overruns, we recommended that the Bureau (1) ensure that costs for
future rural water systems are based on analyses ofparticipating entities’ municipal, rural; and
industrial water needs; (2) determine the amount of additional funding needed to construct
the System as revised by the Tribe’s engineer; (3) request the mnding needed to construct the
revised System or negotiate with the Tribe to determine how the System can be modified to
keep costs within the legislatively authorized amount; and (4) work with the Tribe and the
Tribe’s engineering firm to determine how future noncontract costs can be controlled or
reduced. To address the questioned costs, we recommended that the Bureau (1) instruct the
Tribe to correct the improper charges for operation and maintenance expenditures of
$155,45 1. (2) instruct the Tribe to reimburse the Bureau or provide support for the
unsupported costs of $98,074, (3) work with the Tribe to improve controls to ensure that
System charges are in accordance with the terms of the cooperative agreement, and
(4) negotiate with the Tribe to institute accounting and administrative procedures that enable
costs to be monitored more effectively.

In the May 25, 1999, response (Appendix 5) to the draft report from the Commissioner,
Bureau of Reclamation, the Bureau concurred with Recommendations A-2, A.3, A.4, B. 1,
B-2, B-3, and B.4 and partially concurred with Recommendation A. 1. Based on the response,
we consider Recommendations A.2, A.3, A.4, B.l, B.2, B.3, and B.4 resolved but not
implemented. Accordingly, these recommendations will be referred to the Assistant Secretary
for Policy, Management and Budget for tracking of implementation. Also based on the
response, the Bureau is requested to provide additional information for Recommendation .A. 1
(see Appendix 6).

In accordance with the Departmental Manual (360 DM 5 3), we are requesting a written
response to this report by July 26, 1999. The response should provide the information
requested in Appendix 6.

The legislation, as amended, creating the Offtce of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, the monetary impact of audit findings
(Appendix l), actions taken to implement audit recommendations, and identification of each
significant recommendation on which corrective action has not been taken.

We appreciate the assistance of Bureau and Tribal personnel in the conduct of this audit.
                                     CONTENTS
                                                                                                  Page

INTRODUCTION        ..........................................                                      1

     BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         1
     OBJECTIVES AND SCOPE . . . . . . . . . . . . . . . . . . . .                                   2
     PRIORAUDITCOVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               4

FINDINGS AND RECOMMEh~ATIONS                   .                                              .     5

     A. PROJECT COST OVERRUN . . . . . . . . . . . . . , . 5
     B. COST COMPLIANCE . . . . . . . . . . . . . . . . . . . . . 12

APPENDICES

    1. CLASSIFICATION OF MONETARY AMOUNTS . . . . . . . .                                 . 17
    2. SUMMARY OF COSTS CONTRIBUTING TO OVERRUN . . . .                                   . 18
    3. ACTUAL NONCONTRACT COST RATES FOR
          FISCAL YEARS 1996 TO 1998 . . . . . . . , .                                     . 19
    4. SUMMARY      OF  QUESTIONED  COSTS  .  .   .   .                                   . 20
    5. BUREAU OF RECLAMATION RESPONSE                                                       21
    6. STATUS OF AUDIT REPORT RECOMMENDATIONS .     .   .                                         26
                                     INTRODUCTION

BACKGROUND

The Mni Wiconi Project Act of 1988 (Public Law 100-5 16) authorized and directed the
Secretary of the lnterior to construct the Mni Wiconi Rural Water Supply Project to ensure
a safe and adequate municipal, rural, and industrial water supply for both Indian and
non-Indian residents of South Dakota. The Act authorized construction of the Oglala Sioux
Rural Water System to serve the Oglala Sioux Tribe on the Pine Ridge Indian Reservation
and the West River and Lyman-Jones Rural Water Systems to serve residents in seven
counties’ in southwestern South Dakota. In 1994, the West River Rural Water System and
the Lyman-Jones Rural Water System were incorporated into a single system, known as the
West River/Lyman-Jones Rural Water System. The >qni Wiconi Act Amendments of 1994
(Title 8 of Public Law 103-434) added the construction of the Rosebud Sioux Rural Water
System and the Lower Brule Sioux Rural Water System to serve the respective reservations.
The Amendments also raised the construction authorization ceiling for the Project from
$87.5 million to $263.2 million, subject to indexing,* and provided that the Project would
generally be constructed in accordance with the Project’s hlay 1993 Final Engineering
Report.

The Act, as amended, also authorized the Secretary to enter into cooperative agreements with
the three tribes subject to the provisions of the Indian Self-Determination and Education
Assistance Act of 1975 (Public Law 93-638), as amended, and provide fi_mds for planning,
designing, constructing, operating, maintaining, and replacing the tribal portions of the
Project. A separate cooperative agreement was authorized for the planning, design, and
construction of the West River/Lyman-Jones System, with the Project sponsor responsible
for 20 percent of these costs. In addition, the Project sponsor was solely responsible for the
cost of operating, maintaining, and replacing the System. As the agent for the Secretary, the
Bureau of Reclamation provides oversight for the Project and has the authority and
responsibility to enter into cooperative agreements and to provide the technical and
administrative oversight necessary to complete the planning, design, and construction of the
Project. The Bureau’s oversight included review and approval ofreports, construction plans,
specifications, work schedules, fund requests, and change orders.

The overall Project, which includes a water treatment plant. 60 booster pump stations,
35 water storage reservoirs, and approximately 4,500 miles of pipeline, will ultimately serve
more than 50,000 people, including more than 40,000 Indians on the three resen;ations. In




‘The seven counties are Haakon, Jackson, Jones. Lyman. Mellette. Penningon. and Stanle:,

‘Indexing is rhe process of updating the Congressionally authorized appropriation ceiling of a project for
changes generaIl? attributable to economic factors. usually inflation.

                                                     1
its May 1998 “Master Plan,“3 the Bureau estimated that the total costs to complete the Project
would be $387 million, or $60 million more than the indexed Project costs of $327 million,
The projected overrun was attributable to the Oglala Sioux and Lower Brule Sioux Systems.
In the “Master Plan,” the Bureau also estimated that at current funding levels.’ the
$327 million would not be appropriated until 2006. However, the authorization to
appropriate funds for the Project expires in 2003. As of September 30, 1998, the Bureau had
allocated Federal funds of $107 5 million to Project sponsors, including $4.3 million for
Bureau administration and oversight expenses charged to the sponsors.

The Lower Brule Sioux Rural Water System as authorized was estimated to cost about
$6.2 million, or about 2.4 percent of the total cost of the Project. The System consists of
about 197 miles ofpipeline that enable water to be delivered to and within the boundaries of
the Lower Brule Sioux Reservation; 2 booster pumps: and 1 water storage reservoir. The
System will serve approximately 2,000 people on the Reservation. The May 1998 “Master
Plan” indexed the cost ofthe System from $6.2 million to S8.1 million (October 1999 dollars).
However, estimated costs for the System have increased to $15.2 million, or about $9 million
more than the original estimate and $7.1 million more than the $8.1 million indexed amount
determined by the Bureau. Funding for the System began in fiscal year 1995. As of
September 30, 1998, the Tribe had received funds totaling about $3 5 million (approximately
23 percent of the revised estimated cost for the System), and about $2 million (13 percent of
the revised estimated cost) had been expended.

OBJECTIVES AND SCOPE

The objectives of the audit were to (1) identify the source of any actual or projected cost
overruns and (2) determine whether the costs incurred by the Lower Brule Sioux Tribe to
design and construct its portion ofthe Project were expended in accordance with Federal law,
regulations, and funding agreements. Our audit of the Lower Brule Sioux Tribe was
performed as part of our audit of the four non-Federal sponsors of the Project. The results
of the audits of the other three sponsors of the Project will be presented in separate reports.
The audit of the Mni Wiconi Project was requested by three members of the Congress.

Our audit was performed from September 1998 to March 1999 and included fieldwork at the
Lower Brule Sioux Reservation in South Dakota. The scope of audit included a review of
records and expenditures for the Lower Brule System from initial planning in fiscal year 1993
through fiscal year 1998. To accomplish our objectives, we interviewed personnel from the


‘The “Master Plan” established the construction schedule for each segment of the Project and documented
historical and projected costs to enable the Bureau and Project sponsors to track the status of the Project. The
“Master Plan” also enabled the Bureau and Project sponsors to estimate the effect of changes in annual
appropriations and prices on the construction schedule. The “Master Plan” included a Project construction
ceiling of $327 million. indexed through October 1999. as presented in Bureau budget documents for fiscal
year 2000. The “Master Plan” also included a breakdown of this ceiling for individual Project sponsors. The
total estimated Project costs of $387 million \vere based on information provided by Project sponsors. The
Bureau said that it plans to update the “Master Plan” periodically.

‘In fiscal years 1996 through 1998. annual funding levels for the Project averaged about $25 million.

                                                       2
Lower Brule Sioux Tribe and from the Bureau’s offices in Billings, Montana; Bismark, North
Dakota; and Pierre, South Dakota. We also interviewed personnel from the Tribe’s
engineering firm in Mitchell, South Dakota, and the Tribe’s certified public accounting firm
in Chamberlain, South Dakota. We reviewed applicable legislation, including the Mni Wiconi
Project Act of 1988; Title 8 (Mni Wiconi Act Amendments) of the Yavapai-Prescott Indian
Tribe Water Rights Settlement Act of 1994 (Public Law 103-434) and related Congressional
hearings; and the Indian Self-Determination and Education Assistance Act (Public Law 93-
638), as amended. In addition, we reviewed the Bureau’s May 1998 “Master Plan,” the
Bureau’s December 1998 draft Mni Wiconi Rural Water Supply Project Cost Containment
Report, the Project’s quarterly financial reports, the cooperative agreement between the
Bureau and the Tribe, and the Project’s May 1993 Final Engineering Report. We also
reviewed the Tribe’s financial statements and supporting documentation, procurement
procedures, annual workplans, the initial August 1996 and the revised February 1997 Needs
Assessment for the Lower Brule Rural Water System,’ the cost reduction plan, and
construction bid documents.

Our analysis of the financial status ofthe System was based on expenditures, cost estimates,
and other financial and planning data available as of September 30, 1998. As such, our
conclusions regarding any actual or projected cost overruns may be affected by subsequent
events concerning the cost and design of the System. These events include modifications to,
additions to, and deletions of construction components; revisions of cost estimates based on
current data; increases in authorized Project costs attributable to cost indexing; and efforts
by the Bureau and the Tribe to implement cost-saving measures. In that regard, the Bureau
issued a draft Cost Containment Report in December 1998, which includes various options
for reducing Project costs.

Our audit was conducted in accordance with the “Government Auditing Standards,” issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the
circumstances to accomplish our audit objectives, As part of our audit, we reviewed the
Secretary’s Annual Statement and Report to the President and the Congress, required by the
Federal Managers’ Financial Integrity Act, for fiscal years 1994 and 199.5; the Departmental
Reports on Accountability for fiscal years 1996 and 1997, which include information required
by the Act; and the Bureau’s annual assurance statements on management controls for fiscal
years 1997 and 1998. Based on those reviews, we determined that no material weaknesses
were reported that directly related to the objectives and scope of our audit. In addition we
reviewed the Tribe’s single audit reports for fiscal years 1996 and 1997 and the certified
public accountant’s working papers for the Tribe’s fiscal year 1997 single audit and found that




iThe ?leeds .Assessment detemlined the current and future municipal. rural. and industrial nater needs of the
Tribe and includes cost estimates for the alternatives proposed to meet those needs.

                                                      3
this documentation did not disclose any reportable condition6 or material weaknesses’ related
to the System. We also reviewed the Tribe’s internal controls related to the System to the
extent necessary to accomplish our audit objectives and found weaknesses in the areas of
accounting for and managing the Federal funds advanced to the Tribe for construction of the
System. The internal control weaknesses are discussed in the Findings and Recommendations
section of this report. The recommendations. if implemented, should improve the internal
controls in these areas.

PRIOR AUDIT COVERAGE

During the past 5 years, neither the Office of Inspector General nor the General Accounting
Office has issued any reports on the Mni Wiconi Rural Water Supply Project.




‘5tatement on Auditing Standards No. 60. “Communication of Internal Control Structure Related Matters
Noted in an i\udit.” issued by the American Institute of Certified Public Accountants. states that “reportable
conditions” are matters coming to the auditor’s attention that, in the auditor’s judgment, should be
communicated to agency management. These matters relate to significant deficiencies in the design or
operation of the agenq’s internal control structure that could adversely affect the agency’s ability to record.
process. summarize. and report financial data consistent with the assertions of management in the financial
statcmcnts.

-Statement on Auditing Standards No. 60 states that a “material weakness” is a reportable condition in which
the design or operation of one or more of the specific internal control structure elements does not reduce to
a relatively low level the risk that errors or irregularities in amounts which would be material to the financial
statements being audited may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions.

                                                       4
                  FINDINGS AND RECOMMENDATIONS

A. PROJECT COST OVERRUN

The Bureau of Reclamation has projected a $7.1 million cost overrun for the Lower Brule
Sioux Rural Water System. However. the actual overrun could be substantially higher unless
expenditures for noncontract activities are controlled. The Mni Wiconi Rural Water Supply
Act, as amended (Title 8 of Public Law 103-434), established the May 1993 Final Engineering
Report as the criteria for planning, designing, and constructing the System. The Report’s
estimated costs for the System were $6.2 million, subject to indexing, including noncontract
costs of 39.2 percent. The indexed costs, as determined by the Bureau for fiscal year 2000,
totaled $8.1 million (October 1999 dollars). In addition, the cooperative agreement between
the Bureau and the Lower Brule Sioux Tribe stipulated that the Bureau, as the oversight
agency, ensure that the System was planned, designed, and constructed as generally described
in the Final Engineering Report. However, the costs for the System are projected to exceed
the Bureau’s cost estimate because (1) the Tribe’s cost estimate was not based on a thorough
assessment of its municipal, rural, and industrial water needs and related construction costs;
(2) the Bureau approved construction of additional items that were not included in the Final
Engineering Report; and (3) the Bureau. the Tribe, and the Tribe’s engineering firm incurred
noncontract costs at a rate significantly higher than the 39.2 percent rate stipulated in the
cooperative agreement. As a result, the Bureau will need to request from the Congress an
increase in the costs authorized for the System of at least $7.1 million to complete the System
as currently designed.

Needs Assessment

The Tribe did not ensure that the cost estimate for the System included in the May 1993 Final
Engineering Report was reasonable. Specifically, the Tribe did not actively participate in Mni
Wiconi Project meetings or hire an engineering firm to prepare a needs assessment during the
planning phase of the Project. Instead, the $6.2 million cost estimate* included in the Final
Engineering Report and subsequently incorporated into the hlni Wiconi Project Act was
prepared by the engineering firm for the Oglala Sioux Tribe without the benefit of an
assessment of the Lower Brule Sioux Tribe’s funding and municipal, rural, and industrial




‘The $6.2 million estimate consisted of $4,477.5 11 for construction field costs and $1.755.184 for noncontract
costs. The Final Engineering Report defined field costs as contract costs for a construction component.
including 23.75 percent for appurtenant items and contingencies. The Report defined appurtenant items as
“items that were not specifically identified in the cost estimating procedures because the item does not
represent a significant cost [including] such things as valves along the pipeline. miscellaneous electrical
wiring in the pump stations. tees. bends, and other necessary. but minor components of the constructed
project.” Contmgencies were defined as costs incurred for “unforeseen circumstances during construction
   such as an unexpected escavation into rock along the pipeline route where no rock \vas antictpated or the
need to build a stronger foundation at the treatment plant because unusual soil conditions were discovered.”
The Report defined noncontract costs as those costs incurred pnor to and during construction that relate
primarily to engineering and administration of construction.

                                                       5
water needs. An adequate needs assessment upon which to plan and design the System was
not available until March 1 997.9

We found that except for the pump stations, the costs for all other construction items for the
System were underestimated. Based on our review and a comparison of the original
construction field cost estimate of $4,477,5 11 and the Tribe’s engineering firm’s estimate of
$9,936,580, we determined that construction field costs were underestimated by $5,459,069,
or an increase of 122 percent over the original field cost estimate (see Appendix 2). The
underestimated costs resulted primarily from a combination of two factors: (1) changes in
the estimated feet of pipe, the diameter of the pipe required, and/or the estimated cost per
linear foot of pipe and (2) the addition of distribution system service connections that, if
included, were not specifically identified in the original field cost estimate. For example:

       - The costs to construct the four segments ofthe “core” system”’ necessary to convey
Mni Wiconi Project water to the Lower Brule Sioux Reservation were underestimated by
$1,624,838, or 100 percent.

       - The costs to construct the pipeline to distribute water throughout the Reservation
were underestimated by $2,705,53 1, or 220 percent.

Additional Construction Items

After issuance of the May 1993 Final Engineering Report, the Tribe and the Bureau agreed
to the need for an administration/operations and maintenance building and a new water
treatment plant. Funding, in whole or in part, was approved by Bureau officials, who believed
that the items were necessary for the efficient operation ofthe System (see Appendix 2). The
estimated costs for these additional items were $1,270,000 as follows:

        - The Bureau and the Tribe determined that an administration/operations and
maintenance building, estimated to cost $1,044,000, including noncontract costs, was needed
to plan, construct, operate, and maintain the System. According to Bureau officials, the
exclusion of the cost of this building from the $6.2 million cost estimate in the Final
Engineering Report was an “oversight.”

        - In 1995 and in 1997, the U.S. Environmental Protection Agency determined that the
Tribe’s existing water treatment plant,” the primary source of water for the System, did not



“A needs assessment submitted to the Bureau in August 1 Y 96 was not approved. A revised needs assessment
submitted to the Bureau in February 1997 was approved in March 1997.

‘“The four Tribal “core” system segments allowed for Project water to be delivered to or near the Lower Brule
Sioux Rescnation. whereas the distribution system pipelines transport the water within the boundaries of the
Reservxtion to homes and ranches.

“The Tribe’s February 1997 Needs Assessment stated that the plant provided about 300 gallons of the
4923 gallons of water per minute necessary to meet the needs of the Loner Brule System.

                                                      6
meet safe drinking water standards and that a new water treatment plant was needed. In
response, the Tribe entered into agreements with several Federal agencies, including the
Bureau. to provide funding for the construction of a new treatment plant. The estimated
costs for constructing and outfitting the new plant were about $1.6 million, with the
Bureau/Mni Wiconi Project portion estimated to be $226,000, including noncontract costs,
of which $90,000 was formally approved by the Bureau. The need to replace the plant was
not foreseen when the Final Engineering Report was prepared in 1993. However, we
determined that if the plant is not replaced, the quantity of safe drinking water available from
the System will be inadequate to meet the needs of the Reservation.

Noncontract Costs

The cooperative agreement for the design and construction of the System designates the
Bureau as the oversight agency and requires the Tribe to “make every effort to keep its
administrative [noncontract] costs within the estimates shown in the [Final Engineering]
Report,” which provided for a noncontract cost rate of 39.2 percent of construction field
costs. However, for the 3-year period ending September 30, 1998, the Tribe incurred
noncontract costs of $1,353,187, or about $450,000 annually, which represented 150 percent
of the construction field costs of $899,443 incurred during that period (see Appendix 3) and
approximately $1 million more than would have been expected based on the noncontract rate
of 39.2 percent to construction field costs.

Bureau officials and the Tribal engineer told us that noncontract costs, especially those for
planning, design, and administration, were normally high at the beginning of a project because
of the “high start-up costs.” In the case of the System, the high costs resulted from
completing the engineering planning work required prior to construction and from
coordinating project activities with multiple sponsors. We agree that noncontract costs are
higher at the beginning of a project but believe that the noncontract costs incurred for the
System exceeded a level that could be sustained. We also believe that these costs have to be
controlled if they are to approximate the 39.2 percent rate provided for in the Final
Engineering Report. Since the Tribe did not account for noncontract costs on the basis ofthe
nine categories” provided in the Final Engineering Report, we were not able to directly
compare proposed with actual noncontract costs by category However, for the purposes of
our analysis, we grouped noncontract costs into three categories: tribal-related costs,
engineering-related costs, and Bureau oversight and technical review charges.

         Tribal-Related Costs. For the 3-year period ending September 30, 1998, the Tribe
incurred Tribal-related noncontract costs of $792,83 1, which were more than half of the
noncontract costs incurred and about 88 percent ofconstruction field costs. Ofthe $792,83 1,
costs of approximately S503,174 were incurred in fiscal years 1996 and 1997, prior to the
start of construction in September 1997. In fiscal year 1998, Tribal-related noncontract costs


“The nine categories and corresponding rates in the May 1YY3 Final Engineering Report were contract
admmistration (13.2 percent), easements (1.25 percent). geotechnical ( 3.l percent), archeological (1.25
percent). destgn surveys (1 percent). investigations/Bureau oversight and technical review (-I percent). design
(6 percent). construction observation (10 percent). and traimng (2 percent).

                                                      7
totaled $289,657. However, we found that a high percentage of these costs were fixed; that
is, they did not vary with the level of construction. Of the $289,657, costs of $15 1,427, or
52 percent, consisted of salaries and fringe benefits for permanent employees13 and vehicle
and general offtce costs, all of which were fixed costs. Given the high percentage of tixed
costs, we believe that the Tribal-related rate of noncontract costs will remain high unless the
level offunding received by the Tribe increases. We also found that ofthe $792.83 1 incurred
by the Tribe during the 3-year period, costs of $253,525 were not related to construction of
the System or supported with adequate documentation (see Finding B).

         Engineering-Related Costs. Through September 30, 1998, the Tribe paid $407,423
to its engineering firm for general project assistance and design and construction services,14
or 45 percent of construction field costs. An official of the engineering firm said that the
engineering-related costs have been higher than anticipated because of (1) problems and
delays in reaching agreement among the four sponsors on pipeline routes and construction
schedules, which necessitated design changes; (2) the addition of the new water treatment
plant and the administration/operation and maintenance building; and (3) the need for the firm
to be more involved in coordinating activities among the Tribe, the Bureau, and the other
sponsors and Federal agencies and in assisting the Tribe in preparing System-related
documents, such as work plans and budgets, since the Tribe did not have staff with the
expertise to perform these duties. The engineer also stated that although several portions of
the System had been designed, only one portion of the System had been constructed. The
engineer stated that while he expected the 45 percent rate for engineering-related services to
decrease as construction increased, the engineer did not believe that the Tribe would be able
to meet the overall 39.2 percent noncontract cost rate.

         Bureau Oversight and Technical Review Costs. Through September 30, 1998, the
Bureau charged $152,933, or an overall rate of 17 percent, of construction field costs for
oversight and technical review. A Bureau engineer stated that the rate for Bureau costs has
been higher than the 4 percent rate anticipated in the Final Engineering Report because ofthe
limited construction costs for the System against which to apply Bureau charges. The
engineer also stated that higher Bureau charges resulted from the additional work required
by Bureau engineering and contracting personnel to contract with the Tribe’s construction
enterprise. Since the Tribe has required that construction of the System be performed by the
construction enterprise and not be bid competitively, the Bureau has had to negotiate the
prices for each construction item rather than to accept a competitive bid for a total contract



“For fiscal year 1998. salaries for permanent employees consisted of $36.-M for one-half the salary and
related fringe benefits for the program director and the secretarl\-. $67.6fh for the salaries and frmgc bcncfits
for two inspectors and an easement coordinator, $42.559 for offtce-related costs, and $1.712 for v:ehicle
operation costs.

“According to the Tribe’s engineering firm. general project assistance services included pro\ iding Tribal
officials with engmeering advice and consultation to assist them in the performance of their duties and the
preparation ofwork plans. budgets. needs assessments. water consenation plans. and other services ncccssary
to assist the Tribe in developing the System. Design and construction sen-ices included providing the ctvtl.
structural. mechamcal. and electrical engineering services needed to develop the System.

                                                       8
price. The Bureau engineer stated that the Bureau’s portion of the noncontract cost rate
should decrease as construction costs increase.

Regarding the high rate of noncontract costs, the Bureau, in its December 1998 draft Cost
Containment Report, stated that the Tribe was “not on an equal footing” with the other
sponsors with respect to noncontract costs and that the Tribe would have a “difficult time
staying within the limit of 39.2 percent for non-contract costs” because ofthe limited amount
of annual fUnding received. Under an agreement among Mni Wiconi Project sponsors, only
about 2.37 percent of the Project’s annual appropriation would be allocated to the Tribe
based on the percentage of the costs of the System to total Project costs ($6,232,000 divided
by $263,24 1,000). With annual Project appropriations averaging about $25 million for fiscal
years 1996 through 1998, the Tribe could expect to receive only about $593,000 annually.15
If the Tribe continues to spend about $450,000 annually on noncontract activities, it will
exceed the 39.2 percent rate for noncontract costs provided for in the Final Engineering
Report unless it receives annual funding of about $1.6 million.

We believe that given the limited amount of tinding received, the Bureau and the Tribe need
to work together to ident@ areas where cost savings can be achieved, particularly for
noncontract activities. tn that regard, we believe that the Tribe, the Tribe’s engineering firm,
and the Bureau need to review those noncontract costs over which they have direct control
and determine what actions can be taken to maintain current levels or reduce these costs.
Without a reduction in noncontract costs, it is doubtful that the System can be constructed
within the revised cost estimate of $15.2 million.

Recommendations

We recommend that the Commissioner, Bureau of Reclamation:

        1. Implement corrective actions to ensure that the estimated costs for future rural
water systems are based on a thorough analysis and review of the participating entities’
municipal, rural, and industrial water needs.

        7I. Determine the amount ofadditional tinding needed to construct the Lower Brule
Sioux Rural Water System, as revised by the Lower Brule Sioux Tribe’s engineer, based on
reasonable estimates of the amount of annual funding the Tribe can expect to receive and the
level of future noncontract costs.

        3. Request the additional tinding needed to construct the revised Lower Brule Sioux
Rural Water System or negotiate with the Lower Brule Sioux Tribe to determine what
features or segments of the System will be modified or eliminated so that the costs of the
System are within the legislatively authorized amount.


“The amounts received by the Tribe for the past 2 years have exceeded the amounts provided for in the
agreement among the Project sponsors. The Tribe receil ed allotments of $69032 1 in fiscal year 1997 and
$987.037 in fiscal !ear 1998. The Tribe also received transfers from West River/Lyman-Jones Systems. Inc..
of $500.000 in fiscal year lYY7 and $800.000 in fiscal year 1YY8 to help fund construction work.

                                                    9
        4. Work jointly with the Lower Brule Sioux Tribe and the Tribe’s engineering firm
to determine the corrective actions that can be taken to control or reduce future noncontract
costs.

Bureau of Reclamation Response and Office of Inspector General Reply

In the May 25, 1999, response (Appendix 5) to the draft report from the Commissioner,
Bureau of Reclamation, the Bureau concurred with Recommendations 2, 3, and 4 and
partially concurred with Recommendation 1, Based on the response, we consider
Recommendations 2, 3, and 4, resolved but not implemented and request that the Bureau
provide additional information for Recommendation 1 (see Appendix 6).

Regarding Recommendation A. 1, the Bureau stated:

        Many of the single-purpose rural water projects that [the Bureau of]
        Reclamation has recently become involved with, including the Mni Wiconi
        Project, have not been advanced for congressional authorization through the
        Administration. Pre-authorization planning of these projects has been
        undertaken by project sponsors, States or tribes, with little or no Reclamation
        planning involvement. Hence, Federal standards for water resource project
        planning, including the determination of municipal, rural, and industrial needs,
        are rarely met. Reclamation’s involvement in rural water project planning,
        design, and construction will be an ongoing dialogue within the Department
        of the Interior and the Administration. It will also likely be a focal point at an
        oversight hearing to be held by the House Resources Committee, Water and
        Power Subcommittee. Reclamation will continue to base its involvement in
        rural water development on the direction of the Congress as established by
        law.

The Bureau further stated that it could not provide a target date for implementing the
recommendation because “this issue is potentially subject to action by both the Administration
and the Congress and not within Reclamation’s influence.”

We acknowledge the difficulties inherent in the Bureau’s assuming oversight authority over
projects that are in various stages of planning, design, and construction at the time of Bureau
involvement and recognize that such difficulties occurred in the Lower Brule System.
However, we believe that once the Bureau assumes responsibility for a project, it should take
prompt action to ensure that the project cost estimate is supportable and based on a thorough
analysis of the project sponsor’s water needs. For the Lower Brule System, the Bureau did
not obtain documentation regarding the basis for the original $6.2 million cost estimate and
therefore did not notifL the sponsors and the Congress of probable overruns. However, we
believe that the Bureau, in the future, should obtain and review all pertinent planning and
design documents upon which estimated costs are based. These reviews are within the
Bureau’s oversight responsibilities, which include the timely notification to project sponsors


                                               10
and the Congress of planning, design, or engineering deficiencies that could result in cost
overruns.

We did not review the Bureau’s involvement with the Lower Brule Tribe before the Lower
Brule System was authorized. However, we found that the Bureau provided Project and
non-Project tinding totaling $461,000 to the Rosebud Tribe for Project planning-related
activities before the Rosebud Rural Water System was authorized. Although the Rosebud
Sioux Water System was authorized at the same time as the Lower Brule System, similar
finding was not provided to the Lower Brule Tribe. We believe that to the extent
permissible, the Bureau should provide assistance to project sponsors during the planning
phases of a project. We request that the Bureau identify what actions it will take to ensure
that project cost estimates are reasonable and supportable for f%ture rural water systems.




                                            11
purposes is not an allowable cost and may not be charged to the grant.” Accordingly, the
Bureau may not authorize the use of construction funds for maintenance and operation ofthe
System. Of the $1,596,304 reviewed, we questioned operation and maintenance costs of
$155,45 I that had been charged to construction of the System as follows:

        Vehicle-Related Costs. We took exception to vehicle-related costs of $72,629,
which consisted of $46,527 for the purchase in April 1996 (approximately 1 l/2 years before
construction began) of two pickup trucks that were used exclusively by the Tribe’s Rural
Water Office Operations and Maintenance Branch and $26,102 for gasoline, insurance, and
maintenance costs for Operations and Maintenance Branch vehicles. The costs of the two
trucks had been charged to the Equipment Repair and Maintenance Account and not to a
vehicle or equipment purchase account.

        Personnel-Related Costs. We took exception to personnel-related costs of$6 1,480,
which consisted of (1) $38,398 for salaries of two construction inspectors, (2) $20,501 for
50 percent of the Offlice of Rural Water Director’s salary and fringe benefits for fiscal year
1997, (3) $I,83 1 for travel costs of Operations and Maintenance Branch personnel for fiscal
years 1996 and 1997, and (4) $750 for Christmas bonuses paid to Operations and
Maintenance Branch personnel in fiscal year 1997. Tribal personnel told us that the
construction inspectors who were hired in August 1996 performed operation and maintenance
work until construction began in September 1997. In addition, the Tribe allocated 50 percent
of the Director’s salary to operation and maintenance in fiscal years 1996 and 1998 but
charged the Director’s total salary to construction in fiscal year 1997. Because there was no
documentation to support that all ofthe Director’s time was construction related in fiscal year
1997, we believe that half of the Director’s salary should have been allocated to operation and
maintenance.

        Office Equipment and Operating Costs. We took exception to ofice equipment
and operating costs of $18,342. Of this amount, $8,942 was half of the costs for two
computers and a copier that were used jointly by the Operations and Maintenance and the
Design and Construction Branches but that were charged entirely to construction. The
amount questioned was based on the Tribe’s 50 percent allocation of personnel-related costs
to operation and maintenance. We also took exception to $4,33 1 for furniture, consisting of
$1,727 for items that could not be located and $2,604 for items used by the Tribal
Administration Office; $3,384 for a printer used exclusively by the Tribe’s alcoholism
program; and $1,685 for Operations and Maintenance Branch supplies.

        Administrative Costs. We took exception to $3,000 charged to the construction of
the System that was paid to the Tribe for accounting services provided to the Operations and
Maintenance Branch for fiscal year 1995.

Unsupported Costs

Office of Management and Budget Circular A-87, Attachment A. Section C, states that to be
allowable under Federal awards, costs “must be adequately documented.” We identified costs


                                              13
of $98,074 that were not documented to show how the amounts charged related to the
construction of the System as follows:

       Cultural Resource Offker. We could not locate and the Tribe did not provide
documentation for costs of $73,074 for the salary and fringe benefits of the former Cultural
Resource Officer that identified the work performed and how it related to the System.

         Water Management Committees. The Tribe did not have adequate documentation
showing that payments totaling $25,000, $22,000 for stipends and $3,000 for related
secretarial services, were for work related to the System. These costs included $18,000 for
stipends to Mni Wiconi Steering Committee members and $3,000 for related secretarial
services for the period February 1995 to April 1996, during which time the Steering
Committee conducted its business during Tribal Council meetings: We could not find, and
the Tribe did not provide, separate minutes of meetings for the Steering Committee showing
that business related to the System was conducted to just@ the payment of stipends. We also
questioned Water Advisory Board stipends of $4,000. Tribal personnel told us that the Tribal
Council established the Board, which was paid stipends for all offiscal year 1996. However,
the Tribe did not provide minutes ofBoard meetings from October 1995 to January 1996 and
from June to September 1996 indicating that meetings were held and the nature of the
business conducted at the meetings.

Classification and Documentation of Costs

Neither the Tribe nor the Bureau adequately reviewed System expenditures to ensure that
costs were properly classified, allowable, necessary: and adequately documented. We also
noted that the Tribe did not have adequate written procedures or instructions regarding the
classification, allowability, reasonableness, and documentation of costs. Further, the Bureau
was not provided with, and did not formally request, sufficiently detailed information to
enable it to readily evaluate System expenditures. We found that neither the cooperative
agreement, which incorporates by reference Offlice ofManagement and Budget Circular A-87,
nor the Tribal Fiscal Management Policy” provided detailed instructions on classifying and
accounting for System costs to ensure consistency. For example, the Policy did not include
a chart of accounts or detailed descriptions of the types of costs to be charged to each
account. In addition, the Policy did not address adequate separation of duties. We noted that
the members ofthe Mni Wiconi Steering Committee who reviewed the costs and the members
of the Tribal Council” who approved the costs were the same individuals.” We also noted
that there were no written procedures describing the duties and responsibilities ofthe Steering
Committee and the Tribal Council for reviewing and approving the costs to ensure that they


‘-The Tribe’s undated Fiscal Management Policy was in effect until August 1998. when it was superseded by
the Tribal Financial Management Policies and Procedures.

‘“Tribal regulations require at least t\vo Council members to approve an expenditure

“‘On Februav 22. 1995. the Tribal Council established itself as the blni Wiconi Steering Committee to
“oversee the Mm Wiconi Rural Water Supply System Project on the Lower Brule Reservation.”

                                                    14
were allowable and related to the purposes of the System. As a result of the inadequate
accounting and review procedures and the inadequate separation of duties between the
Steering Committee and the Council, the former Director ofthe Tribe’s Office ofRural Water
was able to charge operation and maintenance costs to the System’s construction program
without Tribal officials taking exception to the charges.

The Bureau also did not detect the inappropriate charges. Prior to January 1997, the Bureau
was provided only with summary financial data that w-ere not sufficient to allow it to
determine the appropriateness and allocability of the costs reported. Although more detailed
quarterly financial data were provided to the Bureau as of January 1997, these data were not
summarized by budget item or on the basis of the noncontract cost categories in the Final
Engineering Report. However, Bureau employees did not formally request sufficient
clarifying information to enable them to readily analyze or compare the costs with the
amounts budgeted and to identify which activities were contributing to the high level of
noncontract costs and bring this matter to the attention of Tribal officials.

We believe that both the Tribe and the Bureau need to negotiate on the level of financial
information to be provided to serve the needs of both the Tribe and the Bureau, The
information provided should allow the Tribe and the Bureau to review System expenditures
to ensure that (1) only necessary costs are charged to construction, given the limited amount
of funding for the System; (2) problem areas are identified and addressed quickly; and
(3) areas where savings can be achieved, particularly savings in noncontract costs, are
identified. In that regard, we believe that the Tribe, the Tribe’s engineering firm, and the
Bureau need to review those noncontract costs over which they have direct control and
determine what actions can be taken to maintain current levels or reduce these costs. Without
a reduction in noncontract costs, we do not believe that the System can be constructed within
the revised estimated costs of $15.2 million.

Recommendations

We recommend that the Commissioner, Bureau of Reclamation:

       1. Instruct the Lower Brule Sioux Tribe’s Rural Water System Operations and
Maintenance Branch to reimburse the Design and Construction Branch for operations and
maintenance expenditures of $155.45 1 that were charged improperly.

        3 Instruct the Lower Brule Sioux Tribe to reimburse the Bureau or provide support
       b_



for the unsupported costs of $98,074 identified by our review.

        3. Work with the Lower Brule Sioux Tribe to improve controls over costs charged
to construction ofthe Lower Brule System to ensure that amounts charged for reimbursement
are allowable and necessary and in accordance with the terms ofthe cooperative agreement.

       4. Institute accounting and review procedures through negotiation with the Lower
Brule Sioux Tribe to enable both the Tribe and the Bureau to account for and monitor System
costs more effectively.

                                             15
Bureau of Reclamation Response and Office of Inspector General Reply

In the May 25, 1999, response (Appendix 5) to the draft report from the Commissioner,
Bureau of Reclamation, the Bureau concurred with the four recommendations. Based on the
response, we consider the recommendations resolved but not implemented (see Appendix 6).




                                           16
                                                        APPENDIX 1


               CLASSIFICATION OF MONETARY AMOUNTS


                                                         Questioned
                      Finding                              costs
Cost Compliance
 Cost Exceptions                                           $155,451
 Unsupported Costs                                           98,074
   Total                                                   $253,525




*The questioned costs are detailed in Appendix 1



                                                   17
                                                                                                    APPENDIX 2


              SUMMARY OF COSTS CONTRIBUTING TO OVERRUN

                                                                      Tribal                             Percent
                                                     Original       Engineer’s                          Increase/
                                                     Estimate        Estimate          Difference      (Decrease)
Lower Brule System “Core” System
Pipeline Segments:
  Vivian to Reliance                               $I,254503    $2066,276               $811,773 ’           65%
  Reliance to West Brule                               170,953     5 16,299               345,346 2         202%
  Kennebec to Reservation                             207,662      255,106                 52,444 3          26%
  Highway 83/County Line Road                                      415.275               415.275 ’
    Subtotal                                       $1,628,118  $3,252,956             $1,624,838            100%
Distribution System Pipelines                      $1,230,073  $3,935,604             $2,705,53 1 5         220%
Pump Stations                                         660,000      421,000             (239,000) ’          (36%)
Reservoirs                                             100.000     420.000               320.000 ’          320%
    Subtotal                                       $1,990,073  $4,776,604             $2,786,53 1           140%
      Cumulative Subtotal                          $3,618,191  $8,029,560             $4,4 11,369           122%
Appurtenant Items @ 12.5 Percent                      452.274    1,003,695               55 1.421
    Subtotal                                       $4,070,465  $9,033,255             $4,962,790
Contingencies @ 10 Percent                            407.046      903.325               496.279
    Subtotal Field Costs                           $4,477,5 11 $9,936,580             $5,459,069            122%
Noncontract Costs @ 39.2 Percent                    1.755.184    3,895,139             2,139,955
    Subtotal                                       $6,232,695 $13>831,719             $7,599,024
Additional Items Not in Final
 Engineering Report
    1. Water Treatment Plant                                            226,000 ’        226,000
   2. Administration Building/Shop                                    1,044,000 9      1,044,000
    Subtotal                                                          1,270,OOO        1,270,OOO
Adjustment to Reconcile to Bureau
  “Master Plan” Amount                                             $72,28 1    $72,28 1
        Total                                     $6,232,695 $15.174,000 $8,94 1 . 3 0 5


‘Differences in pipe size and pipe prices and a 17.670 foot reduction in the quantity of pipe.
‘Differences in pipe size and pipe prices and 33.460 additional feet of pipe.
‘Differences in pipe size and pipe prices and a 23.632 foot reduction in the quantitv of pipe.
‘No separate amount cited in original estimate. The $115.275 is the engineer‘s estimated cost for installing 73.500
feet of 6-inch pipe adjacent to County Line Road in exchange for West Ri\.er/Lyman-Jones System. Inc., installing
about 7 miles of &inch pipe in the Fort Hale area.
‘Differences in pipe size and pipe prices and 388,3 18 additional feet of pipe.
“Increase in number of pump stations from two to three. but reductions in size and estimated costs.
-increase in number of resewoirs from one to two. increasing one resenoir from 100.000 gallons to 450.000 gallons.
and paying the Oglala Sioux Tribe $50.000 to increase another resenoir by lOO.000 gallons.
‘Of the esttmated nnter treatment plant costs of $1.57Y.O00. costs of $226.000, consisting of construction costs of
$162.356 and noncontract costs of $63.611 (5162.356 s ,392). nil1 be charged to the Lower Brule System.
“This amount includes estirnated construction costs of $750.000 and noncontract costs of $2Y1.000 ($750,000 s .3Y2).

                                                        18
                                                                                             APPENDIX 3


                    ACTUAL NONCONTRACT COST RATES
                       FOR FISCAL YEARS 1996 TO 1998


                                                      1996          1997           1998           Total
   Noncontract Costs
    Tribal-Related Costs                           $194,684      $308.490         $289,657’ $792.83 1
    Engineering-Related Costs                        40,082       235,234          132,107    407,423
    Bureau Oversight and Technical
      Review Costs                                    20,3752       83,52 1         49,037        152,933
       Subtotal                                    $255,141       627,245          470,801
        Cumulative Total                                         $8S2.3S6      $1,353,187



   Annual Construction Costs                                       61,186         838,257
       Cumulative Total                                           $61.186        $899.443


  Noncontract Cost Rates                                           1 ,142%3           150%4




‘Amount consists of $15 1.127 for salaries and fringe benefits for permanent employees and office and \.ehicIe
costs. $V..YYl for salary and fringe benefits for the Cultural Resource Offker and consultant costs, $40.624
for Mni Wiconi Steering Committee and other advisog committee stipends. $20.097 for equipment. and
$4.5 18 for clerical expenses.

‘Includes Bureau fiscal year 1995 charges of $10,266.

‘The actual noncontract rate of 1.442 percent through fiscal 1997 was determined by dividing total
noncontract costs of $882,386 by total construction costs of $61.186.

‘The actual noncontract rate of 150 percent through fiscal \-ear 1998 \\as determined by dividing total
noncontract costs of %1,353,187 by total construction costs of $899.413.

                                                      19
                                                                                                          APPENDIX 4


                               SUMMARY OF QUESTIONED COSTS

                                                                                  Questioned Costs
                                                              costs            cost          Unsupported
             Title/Description                               Incurred       Exceptions          costs         Balance
Offke of Rural Water Program Costs
  Offke of Rural Water Program Director                        $87,060         $20,501’                        $66,559
  Cultural Resource Offker                                        73,074                         $73,0742
  Pipe Inspectors                                                 84,765          38,3983                       46,367
  Steering Committee and Advisory Board                           99,423                          25,000’       74,424
  Other Salaries                                                  83,443                                        83,443
  Other Fringe Benefits                                           14,918                                        14,918
  Cultural Resource Consulting and Vehicles                    161,878            72,629                        89,249
  Travel and Training                                             38,171             25815                      35,590
  Legal Fees and Rent                                             19,185                                        19,185
  Offke Equipment and Supplies                                    83,498          18,342                        65,156
  Office Costs                                                    38,547                                        38,547
  Administrative Costs                                             8,868             3,000                       5,868
    Subtotals                                                $792,830        $155,451           $98,074      $539,306
Design and Engineering Costs                                  407,423                                         407,423
Construction                                                  899,4436                                        899,443
    Subtotals                                             $2,099,697                                        S1,846,172
Bureau of Reclamation Facilitation Costs                      152,933                                          152,933
       Total Costs                                        $2,252,630         $155.451           $98.074 $1,999,105




i Amount consists of salary plus fringe benefits for fiscal year 1997.
‘Amount consists of salary plus fringe benefits for fiscal y-ears 1997 and 1993
‘Amount consists of salaries plus fringe benefits for fiscal years lYY6 and 19’11’
‘r\mount consists of $18.000 of Steering Committee stipends. $J.OOO of Water Advisory Board stipends. and $3.000 of
secretarial senices.
‘.4mount consists of $1.83 1 for travel-related costs and $750 for Christmas bonuses.
DAmount includes $6 1. I86 of construction mobilization costs.

                                                             20
                                                                                        APPENDIX 5
                  United States Department of the Interior                               Page 1 of 5

                                    BUREAU OF RECL.VMATION
                                         Washington. D.C. 20240

                                         #‘I   p 5 2-2
D-501 0


                                         MEMORANDUM

To:             Office of Inspector General
                 Attention: Assistant Inspector General for Audits




Subject:       Draft Audit Report on “Lower Brule Sioux Rural Water System,
               Mni Wiconi Rural Water Supply Project, Bureau of Reclamation,”
               Assignment No. W-IN-BOR-004-99(C)-R

The Bureau of Reclamation offers the following comments in response to the recommendations
in the subject report.

We recommend that the Commissioner, Bureau of Reclamation:

Recommendation A. 1

Implement corrective actions to ensure that the estimated costs for future rural water systems are
based on a thorough analysis and review of the participating entities’ municipal, rural, and
industrial water needs.

       Response

       Partially Concur. Reclamation’s continued role in rural water development has been the
       point of ongoing debate in the Congress and within the Administration. Many of the
       single-purpose rural water projects that Reclamation has recently become involved with,
       including the Mni Wiconi Project, have not been advanced for congressional
       authorization through the Administration. Pre-authorization planning of these projects
       has been undertaken by project sponsors, States, or tribes, with little or no Reclamation
       planning involvement. Hence, Federal standards for water resource project planning,
       including the determination of municipal, rural, and industrial needs, are rarely met.
       Reclamation’s involvement in rural water project planning, design, and construction will
       be an ongoing dialogue within the Department of the Interior and the Administration. It
       will also likely be a focal point at an oversight hearing to be held by the House Resources
       Committee, Water and Power Subcommittee. Reclamation will continue to base its



                                                21
                                                                                     APPENDIX 5
                                                                                      Page 2 of 5
                                                                                                    2

       involvement in rural water development on the direction of the Congress as established
       by law.

       A target date for completion of this recommendation has not been identified as this issue
       is potentially subject to action by both the Administration and the Congress and not
       within Reclamation’s influence.

Recommendation A.2

Determine the amount of additional funding needed to construct the Lower Brule Sioux Rural
Water System, as revised by the Lower Brule Sioux Tribe’s engineer, based on reasonable
estimates of the amount of annual funding the Tribe can expect to receive and the level of future
noncontract costs.

       Response

       Concur. Reclamation intends to finalize the “Mni Wiconi Rural Water System Cost
       Containment Report” in June 1999. This report provides a wide range of options for
       addressing additional funding needs. Reclamation will work closely with the South
       Dakota congressional delegation and the project sponsor to identify and request the
       appropriate funding levels.

       The responsible official is the Area Manager, Dakotas Area Office. Target dates are:

       .      June 30, 1999 - Finalize “Mni Wiconi Rural Water System Cost Containment
              Report.”
       .      August 3 1, 1999 - Identify additional ceiling request that Reclamation can support
              and provide information to the South Dakota congressional delegation.

Recommendation A.3

Request the additional funding needed to construct the revised Lower Brule Sioux Rural Water
System or negotiate with the Lower Brule Sioux Tribe to determine what features or segments of
the System will be modified or eliminated so that the costs of the System are within the
legislatively authorized amount.

       Response

       Concur. Reclamation intends to finalize the “Mm Wiconi Rural Water System Cost
       Containment Report” in June 1999. This report provides a wide range of options for
       addressing additional funding needs. Included in the report is an option which identifies
       how the cost ceilings for each project sponsor would need to be adjusted if the Congress
       does not authorize an increase in the construction ceiling. Reclamation will work closely


                                              22
                                                                                    APPENDIX 5
                                                                                     Page 3 of 5
                                                                                                3

       with the South Dakota congressional delegation and the project sponsor to identify and
       request the appropriate Iimding levels.

       The responsible official is the Area Manager, Dakotas Area Office. Target dates are:

       .      June 30, 1999 - Finalize “Mni Wiconi Rural Water System Cost Containment
              Report.”
       .      August 3 1, 1999 - Identify additional ceiling request that Reclamation can support
              and provide the information to the South Dakota congressional delegation.
       .      September 30, 1999 - Consult with the Lower Brule Tribe and South Dakota
              congressional delegation in amending the legislation to increase the cost ceiling.

Recommendation A.4

Work jointly with the Lower Brule Sioux Tribe and the Tribe’s engineering firm to determine the
corrective actions that can be taken to control or reduce future noncontract costs.

       Resuonse

       Concur. Reclamation will work jointly with the Lower Brule Sioux Tribe and the Tribe’s
       engineering firm to establish a process to control or reduce future noncontract costs.
       Reclamation will negotiate with the Lower Brule Sioux Tribe to establish annual budgets
       which identify the types and amounts of allowable noncontract costs. The noncontract
       costs will be based on the noncontract allowances established in the Final Engineering
       Report, 2-year work plans, project master plans, and noncontract allowance analysis
       presented in Reclamation’s Cost Containment Report.

       The responsible official is the Area Manager, Dakotas Area Office. The target date to
       establish a process to control future noncontract costs is September 30, 1999.

Recommendation B. 1

Instruct the Lower Brule Sioux Tribe’s Rural Water System Operations.and Maintenance Branch
to reimburse the Design and Construction Branch for operations and maintenance expenditures
of $155,45 1 that were charged improperly.

       Resnonse

       Concur. Reclamation will instruct the Tribe to reimburse the Systems construction
       account for any of the improperly charged portions of the $155,45 1.




                                             23
                                                                                     APPENDIX 5
                                                                                      Page 4 of 5
                                                                                                    4

       The responsible official is the Area Manager, Dakotas Area Office. The target date to
       provide a letter instructing the Tribe to reimburse any improperly charged portions of the
       $155,451 is June 30,1999.

Recommendation B.2

Instruct the Lower Brule Sioux Tribe to reimburse the Bureau or provide support for the
unsupported costs of $98,074 identified by our review.

       Resuonse

       Concur. Reclamation will instruct the Tribe to reimburse any unsupported portion of the
       $98,074.

       The responsible official is the Area Manager, Dakotas Area Office. The target date to
       provide a letter to the Tribe is June 30, 1999.

Recommendation B.3

Work with the Lower Brule Sioux Tribe to improve controls over costs charged to construction
of the Lower Brule System to ensure that amounts charged for reimbursement are allowable and
necessary and in accordance with the terms of the cooperative agreement.

       Resnonse

       Concur. Reclamation will meet with the Tribe to discuss controls over costs and options
       for improving those controls to ensure that amounts charged for reimbursement are
       allowable and necessary. Reclamation will also perform on-site reviews as necessary to
       include a review of controls used in charging costs to the System.

       The responsible official is the Area Manager, Dakotas Area Office. The Dakotas Area
       Oftice will meet with the Tribe to discuss these issues by August 3 1, 1999.

Recommendation B.4

Institute accounting and review procedures through negotiation with the Lower Brule Sioux
Tribe to enable both the Tribe and the Bureau to account for and monitor System costs more
effectively.

       Resnonse

       Concur. Reclamation will meet with the Tribe to discuss accounting and review
       procedures and options for improving those procedures. Reclamation will also work with

                                              24
                                                                                    APPENDIX 5
                                                                                     Page 5 of 5
                                                                                                5

       the Tribe to provide more detailed financial information to Reclamation to enable both
       the Tribe and Reclamation to account for and monitor System costs more effectively.

       The responsible official is the Area Manager, Dakotas Area Office. The Dakotas Area
       Office will meet with the Tribe to discuss these issues by August 3 1, 1999.

We appreciate the opportunity to comment on the audit recommendations. If you have any
questions or require additional information, please contact Luis Maez at (303) 445-2793.




cc:    AssIstant Secretary - Water and Science, Attention: Laura Brown
                                                                                 APPENDIX 6




             STATUS OF AUDIT REPORT RECOMMENDATIONS


Finding/Recommendation
       Reference                Status                           Action Required
          A. 1           Management             The Bureau should provide a plan identieing
                         concurs; additional    actions to be taken to ensure that cost
                         information needed.    estimates are reasonable and supportable for
                                                fi&ure rural water system projects. The plan
                                                should include target dates and titles of
                                                off%zials responsible for implementation.

  A.2, A.3, A.4, B.l,    Resolved; not          No &n-ther response to the OffIce of Inspector
  B.2, B.3, and B.4      implemented.           General is required. The recommendations
                                                will be referred to the Assistant Secretary for
                                                Policy, Management and Budget for tracking
                                                of implementation.




                                           26
                   ILLEGAL OR WASTEFUL ACTMTIES
                       SHOULD BE REPORTED TO
                  THE OFFICE OF INSPECTOR GENERAL


                                  Internet/E-Mail Address

                                       www.oig.doi.gov



                      Within the Continental United States

U.S. Department of the Interior                          Our 24-hour
Office of Inspector General                              Telephone HOTLINE
1849 C Street, N.W.                                      l-800424-508 1 or
Mail Stop 5341                                           (202) 208-5300
Washington, D.C. 20240

                                                         TDD for hearing impaired
                                                         (202) 208-2420 or
                                                         I-800-354-0996


                     Outside the Continental United States

                                      Caribbean Region

U.S. Department of the Interior                          (703) 235-9221
Off& of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                    North Pacific Region

U.S. Department of the Interior                       (67 1) 6476060
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
R&j Pavilion, Suite 306
Tarrming, Guam 96911
Toll Free Numbers:
 l-800-424-5081           5
 TDD l-800-354-0996
                          i
FTS/Commercial Numbers:
 (202) 208-5300
                          E
 TDD (202) 208-2420       :



1849 C Street, N.W.
